<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF HON. SALLY QUILLIAN YATES TO BE DEPUTY ATTORNEY GENERAL OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 114-822]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-822

                      CONFIRMATION HEARING ON THE
                NOMINATION OF HON. SALLY QUILLIAN YATES
                     TO BE DEPUTY ATTORNEY GENERAL
                          OF THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                          Serial No. J-114-10

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-216 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                       COMMITTEE ON THE JUDICIARY

                  CHARLES E. GRASSLEY, Iowa, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont,       
JEFF SESSIONS, Alabama                   Ranking Member
LINDSEY O. GRAHAM, South Carolina    DIANNE FEINSTEIN, California
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
MICHAEL S. LEE, Utah                 RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      SHELDON WHITEHOUSE, Rhode Island
JEFF FLAKE, Arizona                  AMY KLOBUCHAR, Minnesota
DAVID VITTER, Louisiana              AL FRANKEN, Minnesota
DAVID PERDUE, Georgia                CHRISTOPHER A. COONS, Delaware
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
            Kolan L. Davis, Chief Counsel and Staff Director
      Kristine Lucius, Democratic Chief Counsel and Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              

                       MARCH 24, 2015, 10:07 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................     5
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    95
    prepared statement...........................................     4
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................    96
Perdue, Hon. David, a U.S. Senator from the State of Georgia, 
  introducing Hon. Sally Quillian Yates, Nominee to be Deputy 
  Attorney General of the United States..........................     4

                              INTRODUCERS

Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  introducing Hon. Sally Quillian Yates, Nominee to be Deputy 
  Attorney General of the United States..........................     3
Lewis, Hon. John, a Representative in Congress from the State of 
  Georgia, introducing Hon. Sally Quillian Yates, Nominee to be 
  Deputy Attorney General of the United States...................     1

                        STATEMENT OF THE NOMINEE

Witness List.....................................................    35
Yates, Hon. Sally Quillian, Nominee to be Deputy Attorney General 
  of the United States...........................................     6
    questionnaire and biographical information...................    36

                               QUESTIONS

Questions submitted to Hon. Sally Quillian Yates by:
    Senator Durbin...............................................    98
    Senator Feinstein............................................   100
    Senator Franken..............................................   101
    Senator Grassley.............................................   103
    Follow-up questions submitted by Senator Grassley............   114
    Senator Perdue...............................................   124
    Senator Sessions.............................................   130
    Senator Tillis...............................................   132

                                ANSWERS

Responses of Hon. Sally Quillian Yates to questions submitted by:
    Senator Durbin...............................................   137
    Senator Feinstein............................................   139
    Senator Franken..............................................   140
    Senator Grassley.............................................   144
    Follow-up questions submitted by Senator Grassley............   168
    Senator Perdue...............................................   184
    Senator Sessions.............................................   196
    Senator Tillis...............................................   201

LETTERS RECEIVED REGARDING THE NOMINATION OF HON. SALLY QUIL-LIAN YATES 
           TO BE DEPUTY ATTORNEY GENERAL OF THE UNITED STATES

Anti-Defamation League (ADL), New York, New York, March 27, 2015.   234
Association of Prosecuting Attorneys (APA), Washington, DC, March 
  20, 2015.......................................................   210
Deal, Hon. Nathan, Governor of Georgia, Atlanta, Georgia, March 
  26, 2015.......................................................   235
Dugan, Missy P., President and Chief Executive Officer, Boys & 
  Girls Clubs of Metro Atlanta, Atlanta, Georgia, March 25, 2015.   237
Etheridge, Hon. Jack P., et al., current, future, and former 
  presidents of the Atlanta Bar Association, March 19, 2015......   212
Fisher, Alice S., Former Assistant Attorney General, Criminal 
  Division, et al., former senior officials in the U.S. 
  Department of Justice, March 20, 2015..........................   214
Grindler, Gary G., King & Spalding LLP, Washington, DC, March 19, 
  2015...........................................................   219
Hays, Robert D., Chairman, et al., partners in King & Spalding 
  LLP, Atlanta, Georgia, March 19, 2015..........................   221
Major Cities Chiefs Association (MCCA), J. Thomas Manger, 
  President, and Chief of Police, Montgomery County Police 
  Department, Gaithersburg, Maryland, April 10, 2015.............   238
National Organization of Black Law Enforcement Executives 
  (NOBLE), Alexandria, Virginia, March 19, 2015..................   223
Nunn, Hon. Sam, a Former U.S. Senator from the State of Georgia, 
  Atlanta, Georgia, March 19, 2015...............................   232
Olens, Hon. Samuel S., Attorney General of Georgia, Atlanta, 
  Georgia, March 11, 2015........................................   224
Thompson, Hon. Larry D., John A. Sibley Professor of Law, 
  University of Georgia School of Law, and Former U.S. Deputy 
  Attorney General, et al., former U.S. Attorneys, March 20, 2015   216
Turner, George N., Chief of Police, City of Atlanta Police 
  Department, Atlanta, Georgia, March 20, 2015...................   226
Urban League of Greater Atlanta, Atlanta, Georgia, March 19, 2015   227
Vivian, Rev. Dr. C.T., Founder, C.T. Vivian Leadership Institute, 
  Atlanta, Georgia, March 23, 2015...............................   229
Warnock, Rev. Dr. Raphael Gamaliel, Senior Pastor, Ebenezer 
  Baptist Church, Atlanta, Georgia, March 20, 2015...............   231


 
                        CONFIRMATION HEARING ON
                           THE NOMINATION OF
                       HON. SALLY QUILLIAN YATES
                     TO BE DEPUTY ATTORNEY GENERAL
                          OF THE UNITED STATES

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Committee, presiding.
    Present: Senators Grassley, Sessions, Cornyn, Lee, Perdue, 
Durbin, Whitehouse, Klobuchar, Franken, and Blumenthal.
    Chairman Grassley. The Committee will come to order.
    I think, out of respect for Congressman Lewis and Senator 
Isakson, I think we are going to start with Congressman Lewis. 
Normally, we would make opening statements, but because of your 
time schedule, I think we will start with you to introduce, 
Congressman Lewis, and then we'll go to Senator Isakson, then 
we'll go to Senator Perdue, then we'll have our opening 
statements.
    Senator Blumenthal. We're honored you are here, 
Congressman. Thank you for joining us.
    Representative Lewis. Mr. Chairman, this gentleman here is 
my friend. I know this is an upper body, and I will defer to 
him.
    Chairman Grassley. Well, thank you for your statement on 
how important the Senate is, but the Constitution----
    Senator Blumenthal. We are upper only in our own minds.
    [Laughter.]
    Chairman Grassley [continuing]. The Constitution recognizes 
us as equal, but I was going to call on you first because you 
are the senior Member here today. You've been a respected 
Member of the House of Representatives and you know Ms. Yates, 
so I have chosen, right or wrong, to start with you and I hope 
you will start.

INTRODUCTION OF HON. SALLY QUILLIAN YATES, NOMINEE TO BE DEPUTY 
 ATTORNEY GENERAL OF THE UNITED STATES, BY HON. JOHN LEWIS, A 
                       REPRESENTATIVE IN
               CONGRESS FROM THE STATE OF GEORGIA

    Representative Lewis. Well, thank you very much, Mr. 
Chairman and Members of the Committee. Thank you very much. I 
am delighted and very pleased to be here. I am honored to be 
here with my friends from the Georgia delegation, Senator 
Isakson and Senator Perdue, to introduce the U.S. Attorney for 
the Northern District of Georgia, Sally Yates, who has been 
nominated to serve as Deputy Attorney General of the United 
States.
    You might say Sally Yates' dedication to public service and 
the law is in her blood because both her father and her 
grandfather served on the Georgia State Court of Appeals. Her 
father was one of the great lawyers in the State of Georgia and 
in our Nation. She is principled, tough, for the rule of law, 
but has used her commitment to equal justice to strengthen law 
enforcement ties with the community.
    She graduated with honor from the University of Georgia and 
began her career in private practice at the King & Spalding law 
firm in Atlanta, which is located in the heart of my 
congressional district. There, she tried 15 cases to verdict as 
the sole lead Counsel. In one of her first notable pro bono 
victories, she recovered property wrongly taken from the first 
African-American landowner in Berrien County, Georgia.
    In 1989, she began her storied career in the U.S. 
Attorney's Office. Over the next two decades, she was known for 
her aggressive work, fighting violent crime, combatting public 
corruption, human trafficking, cyber crime, and gang activity. 
It was on her watch, Mr. Chairman, that the U.S. Attorney 
captured and prosecuted the infamous terrorist who bombed the 
1996 Olympics in Atlanta.
    Five years ago, Ms. Yates was unanimously confirmed as the 
first woman U.S. Attorney for the Northern District of Georgia. 
She took a unique approach to leadership. Her first action was 
to go on a listening tour to hear from the people she would 
serve. She made it clear, she made it crystal clear, she made 
it plain, she made it simple in every quarter that her mandate 
was simple: even-handed justice that served the highest 
interests of the people.
    Her leadership was tough, but fair, and in this time when 
the link between law enforcement and the community has become 
so strained, Sally Yates made an effort to reach out and she 
continued to reach out. Under her leadership, the U.S. 
Attorney's Office organized a Youth Justice Summit at Georgia 
State University, a straight-talk student-forum initiative with 
communities and schools in Georgia, a Youth Advocate Advisory 
Council to meet with high school student leaders, and a Street 
Law and Mock Trial Program with Atlanta's John Marshall Law 
School.
    She hosted a public discussion with Georgia's Governor and 
the Chamber of Commerce on the barrier facing formerly 
incarcerated individuals. She worked with the Urban League, 
Morehouse School of Medicine, and the State Board of Pardons 
and Paroles to establish a 12-week program to provide job 
training, counseling, and interview advice for parolees 
returning to the community.
    In the last year, citizens across the country have let the 
Nation know they believe law enforcement is not fair and 
reports are now verifying that some of their concerns are 
valid. Long before these problems came to light, Sally Yates 
led her office to build community relationships and she is 
still doing it every day.
    She knew it was important--very important--not only to seek 
out and prosecute crime whenever she found it, but to create an 
understanding that hard work and justice serves us all.
    Mr. Chairman and Ranking Member, I introduce in this 
Committee a true champion of justice, a true champion of what 
is right, what is fair, and what is just, a leader who is a 
woman of principle, compassion, and faith, a daughter of 
Atlanta, a citizen of Georgia: Ms. Sally Yates, who I believe 
will make an outstanding Deputy Attorney General of the United 
States, and I support her nomination. Thank you.
    Chairman Grassley. Thank you, Congressman Lewis.
    Now, Senator Isakson.

INTRODUCTION OF HON. SALLY QUILLIAN YATES, NOMINEE TO BE DEPUTY 
ATTORNEY GENERAL OF THE UNITED STATES, BY HON. JOHNNY ISAKSON, 
            A U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you very much, Chairman Grassley. I 
am pleased to share the dais with John Lewis, a Georgia hero, 
and is a legend of civil rights in our country. It's a pleasure 
to be with him and I'm happy to wish him his 75th birthday, 
which is this Saturday night. Happy Birthday, John.
    Representative Lewis. Well, thank you very much.
    Senator Isakson. I hope you have 75 more.
    Representative Lewis. I hope so, too.
    [Laughter.]
    Senator Isakson. I hope I do, too.
    You know, I've had the chance, in 37 years of elected 
office, to introduce a lot of Georgians in a lot of different 
venues. I've never had one I looked forward to more than today 
in introducing Sally Quillian Yates as the President's nominee 
for the Deputy Attorney General of the United States of 
America.
    I have known Sally Yates and her husband, Comer, for a 
long, long time. Comer is here with her today, as well as her 
children, Kelley and Quill, and they're behind me. I'm sure 
she'll introduce them more formally when she speaks.
    Sally is a great hero of the State of Georgia. For 25 
years, she's been in the Office of the Northern District of 
Georgia, prosecuting criminals on public integrity, and all 
kinds of things, like the Olympic Park bombing.
    For the last 5 years, she's been the Chief Attorney and 
she's proven herself over and over and over again to be 
effective, to be fair, to be diligent, and to be the kind of 
person you would want representing you in the U.S. Attorney's 
Office.
    Sally is a graduate of the University of Georgia School of 
Journalism, and later a graduate of the University of Georgia 
School of Law. She is what we lovingly refer to as a double 
dog--the Bulldog is the mascot at the University of Georgia, 
and she has her two degrees from that school.
    When she graduated from law school, she graduated magna cum 
laude in her class, one of the highest honors that could be 
bestowed on anyone. She has been referred to by many as tough 
and tenacious, but to introduce her, I thought I would quote 
from Mark Twain, whose famous quote said, ``When confronted 
with a difficult decision, always do what's right; you'll 
surprise a few and you'll astonish the rest.''
    Sally Yates is going to astonish the United States of 
America. She is exactly what this country needs in the U.S. 
Attorney's Office in Washington, DC. She will be a hero of the 
American people, a hero of what is right. She will call them 
like she sees them, she will be fair, and she will be just. She 
is a lady of impeccable taste, impeccable integrity, and an 
impeccable record, and I am very proud to second her nomination 
today, and defer now to David Perdue of the Committee for his 
remarks.

INTRODUCTION OF HON. SALLY QUILLIAN YATES, NOMINEE TO BE DEPUTY 
ATTORNEY GENERAL OF THE UNITED STATES, BY HON. DAVID PERDUE, A 
             U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Perdue. Thank you, Senator. Thank you, Mr. 
Chairman. It's my distinct honor this morning, Mr. Chairman, to 
join Senator Isakson and Congressman Lewis to welcome Sally 
Yates and her family to the Judiciary Committee this morning. I 
want to echo the words of my colleagues this morning regarding 
Ms. Yates' qualifications and her distinguished career in 
Federal service.
    For years she has prosecuted the most violent criminal 
organizations in Georgia, MS-13 and other notorious gangs, drug 
cartels, human smuggling, sex traffickers. The Department and 
the people of Georgia are fortunate to have benefited from Ms. 
Yates' work in the service of justice for so many years.
    So, today I join my colleagues in welcoming her to the 
Judiciary Committee and in congratulating her on the honor of 
this nomination. It is my privilege this morning, Mr. Chairman, 
that, as a Yellow Jacket, to welcome this Bulldog to this 
Committee. Thank you.
    Chairman Grassley. Thank you both, Senators. You are free 
to go if you want to go. Otherwise, we would be glad to have 
you listen to us as well.

         OPENING STATEMENT OF HON. CHARLES E. GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Chairman Grassley. Ms. Yates, I welcome you to the Senate 
Judiciary Committee. It has been a big day for you and your 
family. Congratulations on your nomination. Today we will 
consider the nomination of Sally Yates to be Deputy Attorney 
General. I would start by noting that she is already doing the 
job she has been nominated for.
    She has been serving as Acting Deputy since the beginning 
of the year so she already has some experience with leading the 
Department and has been exposed to some of the challenges that 
the Department faces. Before her service as Acting Deputy 
Attorney General, she served in the U.S. Attorney's Office for 
the Northern District of Georgia for over 25 years, including 5 
as the U.S. Attorney, so she also has experience in running an 
office and important experience as a prosecutor.
    Too often, when nominees appear before our Committee, they 
avoid answering questions by claiming that they are not yet on 
the job so they are not in a position to provide responsive 
answers. However, because Ms. Yates has already been on the job 
for a few months, I assume she'll be able to answer questions 
about the Department for us.
    I won't repeat all of my concerns with the way the 
Department of Justice has been run in the past 6 years because 
I outlined those concerns very thoroughly in Ms. Lynch's 
hearing. But my concerns remain, so I will be interested in 
discussing these important matters with Ms. Yates today.
    She obviously has a lot of impressive experience as a 
prosecutor. Throughout her career she has been involved in a 
number of discussions on criminal law issues. One thing that I 
am going to discuss with Ms. Yates about today is the position 
she has taken regarding mandatory minimum sentences.
    For example, in testimony before the Sentencing Commission, 
she said, ``Mandatory minimum sentences increased deterrence 
and cooperation by those involved in the crime.'' She also 
called mandatory minimums as ``essential law enforcement 
tools'' and argued that mandatory minimum sentences have helped 
reduce crime rates.
    Finally, let me say, just as I am hoping the next Attorney 
General provides an independent voice and works to de-
politicize the Department, I have the same hope for the Deputy 
Attorney General. So, I am looking forward to hearing Ms. 
Yates' perspective on the current state of the Department as 
she provides her testimony and answers to our questions. I will 
be listening, in that case, for changes that she would make to 
the Department and improvements she would implement to make it 
more transparent. The Department of Justice remains deeply 
politicized and I am hopeful that the next Deputy Attorney 
General will have what it takes to make some changes badly 
needed.
    With that, I now turn to our distinguished Ranking Member 
for today, Senator Blumenthal.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL,
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thanks for 
conducting this hearing in such a bipartisan and gracious way. 
First of all, I hope at some point, we are going to clarify all 
this stuff about Bulldogs and Yellow Jackets. I come from a 
State where we have a school that has a bulldog as a mascot, 
but I do not think you were a graduate of that school. So, we 
welcome you anyway.
    Today is a very proud one for me, as a former U.S. Attorney 
and as a former Attorney General of my State, and one who, like 
a number of us on this Committee, has a background in law 
enforcement. Because, I think you really epitomize the best of 
a public interest lawyer and a law enforcer--fair, just, 
honest, as Mr. Lewis referred to you--and I also think that you 
have gained the respect of the people who are maybe the most 
critical judges, the folks who are on the streets: FBI agents 
and DEA enforcers and postal inspectors and Secret Service who 
have contacted our Committee and who have spoken through others 
to say how much they have respected your work and admired your 
tenacity and your toughness, but also your essential fairness 
in enforcing the law. Those qualities, as you and I have 
discussed in our private meeting, will be critically important 
because the role of a prosecutor is not only to obtain 
convictions but to achieve justice.
    In the words of Justice Jackson--and I am paraphrasing, not 
quoting--the Department of Justice faces enormous challenges 
ahead and new leadership will be important to that direction. 
But I want to say how much I appreciate the leadership that we 
have seen from Attorney General Holder.
    I think he deserves gratitude from our Nation for his 
leadership during a very tough time, and I am hopeful that we 
will confirm his replacement very shortly. Loretta Lynch is 
eminently well qualified and I am hopeful that we will move 
quickly to your confirmation as well. I look forward to 
supporting you.
    I want to just say, finally, my thanks to your family who 
are here today, Comer, Kelley and Quill. I know that your son 
and daughter may not have always believed that your edicts 
were, to quote Congressman Lewis, ``right, fair and just.'' 
There were perhaps moments when your directions were questioned 
by them, but I know that you are proud of them, as they are 
extremely proud of you. I want to thank your husband for his 
public service, as well as yourself.
    Thank you very much for being here and thanks for answering 
our questions today.
    Chairman Grassley. Before you speak, I would like to swear 
you, please.
    [Witness is sworn in.]
    Chairman Grassley. You are free now to make any opening 
statement you want to make, and also to introduce family, 
friends, and anybody else that is proud of your nomination that 
you want to introduce to the Committee.

        STATEMENT OF HON. SALLY QUILLIAN YATES, NOMINEE
       TO BE DEPUTY ATTORNEY GENERAL OF THE UNITED STATES

    Ms. Yates. Well, thank you, Chairman Grassley and Ranking 
Member Blumenthal, and Members of the Committee. It is an honor 
to appear before you today.
    I'm very grateful for this opportunity and grateful for 
President Obama's nomination. I'd also like to thank Senator 
Isakson and Senator Perdue and Congressman Lewis for their kind 
and generous introductions. I am truly humbled by their 
confidence in me and am grateful to them for their remarkable 
lives of service to our State and to our country.
    It's particularly meaningful for me to appear today 
surrounded by my family, my husband, Comer, and daughter, 
Kelley, and son, Quill. I'm not only grateful to them for their 
love and support, but I'm also incredibly proud of each one of 
them. My husband Comer, a lawyer by training, followed his 
heart and now runs a school for children with learning 
disabilities and children who are deaf and hard of hearing.
    My daughter, Kelley, is in her first year as a special 
education teacher in North Carolina, and my son, Quill, is a 
sophomore in college, where he is studying political science 
and environmental policy.
    My only regret is that my parents, both of whom have passed 
away, are not here today. They instilled in me a love of the 
law and a call to public service. I come from a long line of 
lawyers--lawyers and Methodist preachers.
    Even my grandmother was a lawyer. In fact, she was one of 
the earliest women admitted to the Georgia bar. But law firms 
weren't hiring many women to practice law back then so she 
served as a legal secretary instead. My father and his father 
before him were State Appellate Court judges and they 
demonstrated by example that the law is an instrument for 
ensuring that right is done in the world.
    My father died shortly before I graduated from law school 
and I vividly recall him counseling me then to think about the 
job that I was going to pursue when I graduated from law school 
and to make sure that the work that I chose when I graduated 
was more than just a job or a way to earn a living.
    Rather, he believed that we have an obligation to use our 
legal education for the greater good and he encouraged me to 
find a path where I could make a real difference in the world. 
That path took me to the Department of Justice. I joined the 
U.S. Attorney's Office in Atlanta in the fall of 1989 and the 
Department of Justice has been my home ever since.
    When I joined the U.S. Attorney's Office, I certainly 
didn't expect that I would still be with the Department of 
Justice 25 years later. But once I experienced the privilege of 
representing the people of the United States, of getting to do 
what I believe is right, and fair, and just, in every case, 
anything else would have been just a job.
    Bob Barr, then the U.S. Attorney for the Northern District 
of Georgia, entrusted me with my first position in the 
Department and that was that of a line prosecutor. I began the 
way all young prosecutors do: investigating and trying cases; 
working with agents and witnesses to ensure that those who 
violated the law in the Northern District of Georgia were held 
accountable; and that our community was made safe.
    Over time, my cases became more complex and I assumed 
leadership positions within the office: Chief of the Fraud and 
Public Corruption Section; First Assistant U.S. Attorney; and, 
eventually, the first female U.S. Attorney for the Northern 
District of Georgia.
    Throughout this time, I carried with me the values that 
were instilled by my family, that the law can be an instrument 
for good but only when it's applied fairly, and thoughtfully, 
and objectively. I believe that it's a credit to the 
institution that I love that I have held leadership positions 
in both Democratic and Republican administrations and that I've 
witnessed career men and women of the Department consistently 
following the facts and the law with great distinction and 
without regard to politics.
    Over the years, I've seen the Department from a variety of 
vantage points. I personally prosecuted public corruption 
regardless of party, and led our team to holding accountable 
the Olympic bomber, Eric Rudolph. As a supervisor, I've ensured 
that our Office had the expertise and resources and focus to go 
after the worst of the worst, whether they were international 
gangs, human trafficking rings, or cyber criminals.
    As U.S. Attorney, I was vice chair of the Attorney 
General's Advisory Committee where I gained additional insight 
about the challenges that each U.S. Attorney's Office faces 
across the country, challenges that I expect that you all hear 
about from your constituents every day.
    When the President nominated me, a career prosecutor, to 
serve as the Deputy Attorney General of the United States, it 
was the greatest honor that I could imagine. I'm proud to say 
that in the brief period in which I've served as Acting Deputy 
Attorney General, I've seen on a national scale the same skill, 
and care, and dedication in our attorneys that I knew back in 
the Northern District of Georgia.
    In taking on the day-to-day operations of the Department, 
it's $27 billion budget, and 114,000 employees, I also 
understand that we face critical national security and criminal 
justice challenges.
    I believe that we can work together to face these 
challenges and, in my role as the chief operating officer of 
the Department, I will be committed to ensuring that the 
resources that Congress provides to the Department of Justice 
are used as effectively as possible to protect the public that 
we all serve.
    I know that several of you have served previously in the 
Department and share my love of this great institution. As you 
all know, the Department of Justice is unique among Cabinet 
agencies. It is, and must be, independent and nonpartisan. We 
don't represent an ordinary client, and as the representatives 
of the people we must always be governed by doing what is just.
    This has been my life's work. If I am fortunate enough to 
be confirmed, I can promise you that I will spend each and 
every moment guided solely by the Department's singular mission 
to seek justice.
    Thank you, and I look forward to your questions.
    Chairman Grassley. Yes. Did you want to introduce family 
and friends?
    Ms. Yates. Yes, certainly. This is my husband, Comer Yates, 
my son, Quill Yates, and my daughter, Kelley Yates.
    Chairman Grassley. And any friends and family you have 
here, if you want their names in the record, we'd be glad to 
include it if you give us that information.
    Ms. Yates. Thank you, Senator.
    Chairman Grassley. Okay. We'll have 7-minute round 
questions, the first round; the second round will be 5 minutes. 
I will start.
    In the last year, I have asked the Attorney General four 
times to disclose the Office of Legal Counsel's opinions 
regarding the lawfulness of the President's various 
controversial Executive actions. In response to my first 
letter, the Department refused to provide all OLC opinions, but 
said if I had any concerns about a particular Executive action 
I could follow up.
    In less than 2 weeks, the President then released five 
senior Taliban commanders, the so-called Taliban Five, without 
notifying Congress as he was required to do by statute. So I 
took the Department up on its suggestion and asked for the 
legal advice DOJ provided before the decision was made to 
release the Taliban Five.
    Six months later, the Department responded to me and 
instead of providing OLC advice, it provided a document that 
the Department of Defense gave the Government Accountability 
Office in an after-the-fact effort to defend its actions.
    Of course, we all remember the Government Accountability 
Office had concluded that the administration had acted 
unlawfully when it released the Taliban Five.
    Now, that document is not good enough. It's especially 
disappointing considering that the Attorney General sat before 
this Committee last year and assured me he would look for ways 
to get this information to Congress.
    So, my question on this subject: Would you provide this 
Committee with the opinion of the Office of Legal Counsel that 
it offered on this matter, and whether in memorandum or less-
than-formal format, the information before these senior Taliban 
commanders were released without congressional notification as 
the law requires?
    Ms. Yates. Thank you, Senator for the question. And your 
question touches on a critically important issue, and that is 
the issue of transparency. It certainly is important that the 
people of the United States and this body, and that Congress, 
understand the basis for actions by various Departments of the 
U.S. Government. We're committed to getting you the information 
that you need to understand the basis for those actions.
    I think traditionally the actual OLC, Office of Legal 
Counsel, opinions themselves have traditionally not been 
disclosed, and that's for good reason. We want to encourage the 
agencies in the executive branch to come to the Department of 
Justice and to seek counsel and for there to be a full and 
frank exchange of information and ideas and, just like a 
standard attorney-client relationship, don't want to have a 
chilling effect on that.
    So, while we are absolutely committed to getting you the 
information about the underlying rationale, I think we 
generally follow the position that has been followed throughout 
the Department of Justice in many administrations to decline to 
provide the actual OLC opinions themselves.
    Chairman Grassley. Then I assume that you would not give me 
the opinion as I requested?
    Ms. Yates. I'd certainly be happy to work with you and your 
staff about making sure that you have the information that you 
need and that you would like.
    Chairman Grassley. But not the opinion.
    Ms. Yates. I'd be happy to talk with you about the 
underlying rationale.
    Chairman Grassley. I won't get the opinion?
    Ms. Yates. I don't, at this point, believe that there's a 
reason to revisit the decision about the opinion itself, 
Senator.
    Chairman Grassley. In other words, the decision has been 
made that Congress can't have the opinion, and so we won't get 
the opinion. Is that what you just said?
    Ms. Yates. I don't have any present intention to revisit 
that decision now, but would be delighted to work with you and 
your staff to try to get you all the information about the 
underlying rationale behind that.
    Chairman Grassley. Okay. Then let me follow up with this 
statement because the administration has released other OLC 
opinions, so I don't accept the idea that the administration 
can pick and choose which of these opinions it might release 
and which it won't, based on perceived political interests.
    The Department of Justice explained the legal reasoning 
that it used to justify Executive amnesty. We have seen that 
that is a very flimsy argument. It seems to me the Department 
owes the American people an explanation as to why it advised 
that the President could release the Taliban Five without 
notifying Congress, as the law requires.
    So I intend to follow up and ask you about this in my 
written questions, and citing some sort of vague privilege is 
not good enough for me. But you and I had discussions of how 
important oversight is for me, and so just so you know, it is 
not reasonable that some OLC opinions can be released and 
others can't, and you don't want to revisit that.
    Now I want to go to another point, and because I just have 
2 minutes left this will probably be the last question I can 
ask you at this point. Your testimony before the Sentencing 
Commission in 2010 stated that as a result, in part, of 
mandatory minimum sentences and abolition of parole, crime 
rates were dramatically reduced.
    You related that the experience of law enforcement is that, 
``There are tangible benefits to law enforcement and public 
safety from mandatory minimum sentencing laws. Mandatory 
minimum sentences increased deterrence and cooperation by those 
involved in crime.'' You called mandatory minimums then an 
``essential law enforcement tool.''
    Additionally, you stated that judges were exhibiting 
``undue leniency for some white-collar offenses and some child-
exploitation offenses,'' and you recommended that it might be 
appropriate to create some new mandatory minimum sentences.
    But at some later time you gave a speech saying, ``We can't 
jail everybody,'' that prison spending was reducing other DOJ 
spending and that we can't afford to have so many people in 
prison.
    So, question: You served as Federal prosecutor for over 25 
years. Do you stand by your 2010 testimony that mandatory 
minimum sentences are ``an essential law enforcement tool'' and 
that they ``increase deterrence and cooperation by those 
involved in crime'' ?
    Ms. Yates. Senator, I believe that mandatory minimum 
sentences are an important tool for prosecutors, but I also 
think that we have an obligation to use that tool as 
effectively and as efficiently as possible. I'm a career 
prosecutor, as I've made clear this morning, and I certainly 
wouldn't support anything that I believed would undermine 
public safety.
    But I also know that we have a serious fiscal reality that 
we are facing now, and that is that our prison population is 
exploding. And as a result of that, resources that would go to 
prosecutors and Federal agents to be able to investigate and 
prosecute crimes are being diverted to the Bureau of Prisons.
    The Bureau of Prisons now takes up almost two-thirds of the 
Department's budget. That is really untenable and 
unsustainable, so I believe that mandatory minimum sentences 
are an important tool but that we need to use that tool 
effectively.
    Chairman Grassley. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. At the outset I'd 
like to ask permission to include in the record a statement 
from Senator Patrick Leahy, our colleague from Vermont, in 
support of Ms. Yates' nomination.
    Chairman Grassley. Without objection.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Blumenthal. And I'd also like to include a number 
of letters--I referred to them earlier--from colleagues, law 
enforcement officials, officials in Georgia, in support of that 
nomination.
    Chairman Grassley. Without objection, that will be 
included.
    [The information appears as submissions for the record.]
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman.
    Let me just ask you about OLC opinions, Ms. Yates. It's 
been a tradition common to, I think, most recent 
administrations that OLC opinions generally are not released. 
Is that true?
    Ms. Yates. That's certainly my understanding, Senator, yes.
    Senator Blumenthal. Thank you.
    Let me ask you about the Bureau of Prisons and mandatory 
minimums. My understanding is also that the policies on this 
issue have gone back and forth. I can remember a time when 
everybody was against mandatory minimums, then they were 
adopted by many States.
    My own feeling is that we really need to do more research 
and study on what is effective in deterring wrongdoers and 
lawbreakers in this area and just use the most effective, cost-
effective policy. You have rightly cited the cost of 
incarcerating convicted criminals beyond the point where it 
makes any difference to rehabilitation or deterrence, and so I 
assume you'd be open to that kind of research and study?
    Ms. Yates. Absolutely, Senator. While I believe that 
mandatory minimums have a place in our criminal justice system, 
I believe that the most current research indicates that it is 
the certainty of punishment that really has the greatest 
deterrent effect, not necessarily the length of the sentence.
    Senator Blumenthal. And in particular you made reference to 
the very sizable amount of the Department's budget that is 
spent on the Bureau of Prisons. My understanding is that one of 
the growing segments of population are actually women prisoners 
in the system.
    In fact, in Danbury, Connecticut, the Bureau of Prisons is 
constructing a new facility, and I'm hopeful that I can follow 
up with you on construction of that new minimum facility in 
Danbury because, in November 2013, the Bureau of Prisons 
estimated that the construction of this facility would take 18 
months and the new facility would open in May 2015.
    That construction has been delayed, I think, in that 
facility, and others around the country. There's a question 
about whether we're providing the kind of environment that 
makes for not only fair, but also effective, incarceration. So 
I hope that you would be willing to work with me and consult 
with me on that issue.
    Ms. Yates. Absolutely, Senator. I would look forward to 
that.
    Senator Blumenthal. On another issue that is important, I 
think, to the administration of Justice, the Department opened 
a criminal investigation concerning the GM ignition switch and 
the circumstances surrounding that company's failure to 
disclose the defects in the ignition switch, which ultimately 
caused injuries and fatalities. I think the number of 
fatalities now is approaching 60, according to Ken Feinberg, of 
the Compensation Fund.
    I hope that you will work with me and other Members of the 
Committee also in bringing that criminal investigation to a 
prompt and just conclusion because I think that the decisions 
to be made by those victims of the GM ignition switch over 
whether they accept the Compensation Fund awards will depend on 
the conclusion of that investigation.
    Certainly deterrence of the kind of alleged wrongdoing that 
occurred, concealment and even potentially fraud against the 
U.S. Government, really depends on an effective conclusion of 
that investigation and I hope that you will work with me on 
that investigation as well.
    Ms. Yates. Certainly. And I appreciated your raising this 
with me when we had an opportunity to talk last week. And if 
I'm fortunate enough to be confirmed, I would look forward to 
working with you on this issue as well.
    Senator Blumenthal. Let me ask you, in conclusion on this 
first round of questions, as a newcomer to your position, not 
to the Department of Justice, let me give you the opportunity 
to talk about where you think your priorities will be, whether 
it's human trafficking, or organized crime, or national 
security, or terrorist threats to this country and where you 
think the resources of the Department could be, and should be, 
enhanced?
    Ms. Yates. Well, thank you, Senator. Certainly we face a 
number of challenges at the Department of Justice. National 
security and keeping our country safe from acts of terrorism 
always is, and must be, our number 1 priority. But we have 
other challenges as well.
    Certainly cyber security is a very important issue for us. 
We are seeing that it impacts really the full spectrum, the 
national security issues, critical infrastructure issues, 
issues with respect to private industry, and our own personal 
privacy as well. So, cyber security is certainly a critically 
important issue for our Department.
    There's another issue that, I think, that we also need to 
focus on now and that is really our relationship with law 
enforcement. I've been fortunate to be able to work with all 
levels of law enforcement for the 25 years that I've been a 
prosecutor, both State and local law enforcement and Federal 
agents. I think strengthening that relationship will be an 
important priority for us.
    I hope that I will be able to bring the perspective of the 
field in assessing our priorities, because using our resources 
in the most effective way possible is a critically important 
priority for the Department of Justice.
    I think we also need to make sure that we are bringing that 
focus to our investigative agencies. It's important that we not 
be generating stats, but actually having an impact on the 
communities that we serve to make them as safe as possible. So 
one of the things that I would like to do is to work with our 
law enforcement agencies to ensure that they are focused on 
making an impact on the safety of the communities rather than 
just, as I said, generating stats.
    Senator Blumenthal. Thank you. And part of aiding local law 
enforcement is determining what kinds of equipment and training 
really makes a difference to local law enforcement and 
assessing carefully and accurately what will be of greatest 
assistance to them in dealing with the vast variety of 
challenges they face.
    Ms. Yates. That's absolutely right, Senator. And, in fact, 
just last week I was fortunate to have a meeting with the heads 
of many of the local law enforcement organizations, the purpose 
of which was not for me to talk, which is sort of a change for 
a lawyer, but actually to listen to them and to hear from them 
their concerns and their priorities and how we can work 
together going forward in the most effective way possible.
    Senator Blumenthal. Thank you very much.
    Ms. Yates. Thank you.
    Senator Blumenthal. My time has expired, Mr. Chairman. 
Thank you.
    Chairman Grassley. Before I call on Senator Cornyn, I want 
to go to the Agriculture Committee for 15 minutes. We've got 
enough people here to ask questions, so would you take over 
according to--until I get back? So it's my understanding it 
would be Cornyn, then Durbin, if he comes back, and then 
Perdue, then Lee. That's the way, I think, it works out.
    Senator Cornyn, go ahead.
    Senator Cornyn. Ms. Yates, congratulations on your 
nomination.
    Ms. Yates. Thank you, Senator.
    Senator Cornyn. Certainly you have an impressive career in 
public service and have all of the qualifications to prepare 
you for being the Deputy Attorney General. I take seriously the 
advice and counsel of our colleagues, Senator Perdue, Senator 
Isakson, and their testimonials to your public service, and 
Congressman Lewis as well.
    I guess the biggest problem someone in your position has 
when they come to Washington, DC, as a line prosecutor, is the 
politics and the ambiguity that seems to exist, too often, in 
my view, about the role of the chief law enforcement officer of 
the United States, the Attorney General, and I would include 
high-level appointees like you, about where your loyalties lie. 
You've been very clear about your dedication to the law and 
pursuit of justice, and that's very admirable.
    But sometimes here at the highest levels of the Department 
of Justice--and this has happened in Republican administrations 
and Democratic administrations--because you serve at the 
pleasure of the President, you are confirmed by the Senate, and 
you--when asked a question about the law, sometimes you get a 
political answer.
    Could you just explain to me your perspective on where your 
loyalties will lie, given the fact that you are appointed by 
the President and serve at his pleasure? Can you tell the 
President ``no'' ?
    Ms. Yates. Well, thank you for the question, Senator, 
because I think you have raised, obviously, a critically 
important issue, and that is the independence of the Department 
of Justice. I can tell you very simply where my loyalties lie, 
and that is to the people of the United States and to the 
Constitution. That's what I've been doing for the last 25 
years.
    During the time that I was an Assistant United States 
Attorney, and as U.S. Attorney, I actually specialized in 
public corruption prosecutions. You have to stand up to some 
powerful people when you bring a public corruption case, and 
that's what I've been doing the balance of my career. As I 
said, I've been doing this for a long time, and committed to 
the Department of Justice and to the cause of justice, and I'm 
not going to give that up in the last 2 years.
    Senator Cornyn. According to an unclassified threat 
assessment from the Texas Department of Public Safety--this has 
to do with cartels that control human smuggling and drug 
trafficking--according to this unclassified threat assessment, 
``Mexican cartels control most of the human smuggling and human 
trafficking routes and networks in Texas. The nature of the 
cartels' command and control of human smuggling and human 
trafficking networks along the border is varied, including 
cartel members having direct organizational involvement and 
responsibility over human smuggling and human trafficking 
operations, as well as cartel members sanctioning and 
facilitating the operation of human smuggling and human 
trafficking organizations.''
    Do you agree that trans-national criminal organizations 
control much of the human trafficking in and about the United 
States?
    Ms. Yates. Well, human trafficking was a significant issue 
for me as U.S. Attorney in the Northern District of Georgia. In 
fact, some accounts indicate that Atlanta is the number 1 city 
in the country for child sex trafficking. Some rank it lower. 
I'm not sure if we're number 1 or number 3, but I know whatever 
it was, it was too large.
    We also are at the unfortunate crossroads in Atlanta of 
another issue, and that is, in Atlanta we were the East Coast 
hub for the Mexican cartels, and so I had an opportunity to 
have to combat both of these.
    My experience with the cartels has been that they 
essentially go wherever the money is and wherever there is a 
profit to be made. We know that human trafficking now is the 
second fastest-growing illegal enterprise in the world, second 
only to drug trafficking. So, it's not surprising that the 
cartels would also want to be involved in human trafficking as 
well.
    Senator Cornyn. Your answer reflects what I believe to be 
the fact, that they do go where the money is, whether it's 
people, drugs, weapons, you name it. That ought to cause us a 
lot of concern. Will you make that a priority, if confirmed to 
this office?
    Ms. Yates. Absolutely, Senator. This was one of my top 
priorities when I was U.S. Attorney in Atlanta, and that was 
ensuring that we weren't just doing the one-off drug cases, but 
rather were doing everything we could to actually disrupt and 
dismantle the Mexican cartels and to work our way up as high as 
we possibly can in the organizational structure of those 
cartels.
    Senator Cornyn. Well, I hope, if the Senate gets unstuck on 
human trafficking legislation that we are on--and I'm 
optimistic that we will eventually--we'll be able to provide 
additional resources to law enforcement, as well as the 
victims, to help them heal and return to as normal a life as 
they can.
    Since I came to the Senate I have been very engaged with my 
friend, Senator Leahy, the Ranking Member, on freedom of 
information reform. Of course, as you know, the Department of 
Justice has oversight responsibility for implementation of the 
Freedom of Information Act.
    According to a recent AP report, in response to a request 
regarding the First Lady's dresses--now, I don't know why 
somebody is curious about the First Lady's dresses, actually, I 
guess the question had to do with who pays for those--the 
responding agency blacked out the sentence, ``We live in 
constant fear of upsetting the White House,'' and claimed an 
exemption which protects personnel and medical files, such as 
Social Security numbers and addresses.
    In 2009, the Counsel to the President issued an 
unpublicized memorandum ordering all executive departments and 
agencies to consult with the White House Counsel's Office on 
any FOIA requested documents involving ``White House 
equities.''
    I'm not quite sure what ``White House equities'' are, but 
do you believe that it's appropriate for the White House to 
review FOIA requests that are not directed to the White House 
but directed to executive branch agencies before responding?
    Ms. Yates. Well, thank you for the question, Senator. I 
think that our FOIA laws are certainly in place to ensure the 
kind of transparency that is really the bedrock of our 
democracy. And certainly the Department of Justice is committed 
to ensuring that FOIA laws are followed not just in the letter, 
but also in the spirit.
    I will confess that I am not familiar with the request for 
the First Lady's dresses and have not gotten deeply into FOIA 
litigation in the 8 weeks that I've been at main Justice now, 
but I can assure you that going forward I would be happy to 
work with you and other Members of the Committee to ensure that 
we are fulfilling our obligation under the FOIA laws.
    Senator Cornyn. Just to clarify my question, I think it was 
about who pays for them. I wasn't clear about that initially. 
But I appreciate your commitment to work with us on this. I 
think there's a lot of work that needs to be done at the 
Department, and in the Federal Government generally, about 
transparency, which you referred to in your opening comments, 
and fidelity to the rule of law when it comes to freedom of 
information.
    Thank you very much. Good luck.
    Ms. Yates. Thank you, Senator.
    Senator Lee [presiding]. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.
    And Ms. Yates, thanks for being here today and thanks for 
coming by my office. Let me ask you at the outset about human 
trafficking and stipulate that I think that Senator Cornyn's 
bill is a good bill. We have been mired down on one aspect of 
the bill. We are hoping we can break through, but it is felt 
very strongly by this Committee on both sides that we need to 
address this.
    You have undoubtedly dealt in some capacity with the 
victims of human trafficking and it strikes me that these 
victims, many of them, are very, very young. That is one of the 
tragic aspects of this. Most, if not all, of them are in some 
state of servitude because of the people who are controlling 
their lives.
    Which leads me to a generalized question. By classic 
definition, the victims who are impregnated or apparently 
subject to sexual assault would be victims of statutory rape in 
most States, and certainly involuntarily sexual assault by 
definition in most categories. What we're trying to reach here 
is, a question about how they would be treated if pregnant and 
whether they would be regarded as victims of rape. Could you 
make any observation on that?
    Ms. Yates. Well, Senator, in the time that I've been 
involved in human trafficking prosecutions, which is actually 
much of my career at the U.S. Attorney's Office and 
particularly in the last 5 years, some of the most meaningful 
work that I've done is an opportunity to spend time with the 
victims of these cases. Actually, I'm careful oftentimes to try 
not to call them victims, but rather survivors, because that's 
what they are. Their courage is absolutely humbling.
    Certainly I'm not familiar with the details of each State's 
statutory rape laws, but in my home State of Georgia, if you 
have sex with an underage woman, then she would be certainly--
or an underage girl, it wouldn't be a woman--she would be a 
victim of statutory rape. But to be able to give you a real 
legal answer on that, I would really need to have a better 
understanding of each State's statutory rape laws.
    Senator Durbin. Understood, and fair. That is--we are kind 
of tied into this issue of rape and abortion. Many of us 
believe that by definition the victim/survivors would 
automatically be characterized as rape victims by virtue of 
their age or the circumstances of the sexual assault. But 
anyway, it's fair enough and I won't hold you to any strict 
standard on that.
    Can I ask on this issue that's been raised, Senator Lee and 
I are cosponsoring a bill called the Smarter Sentencing Act, 
and we have discussed this. It was probably 1995, maybe 
earlier, when Congress established mandatory minimums, and for 
those mandatory minimums, or with them, we were trying to 
reduce the rate of crime.
    We were trying to eliminate the uncertainty and variation 
in sentencing and generally send out a message to those who 
committed a crime that there was a price to be paid. The net 
result of it has been a dramatic, dramatic increase in the 
number of individuals incarcerated in our Federal system 
charged under these mandatory minimum statutes, and 
particularly in the category of nonviolent drug offenses. We 
have seen a dramatic increase.
    Senator Lee and I have introduced a bill, the Smarter 
Sentencing Act. We do not eliminate any mandatory minimum 
crime, we do not eliminate the maximum penalty on any mandatory 
minimum crime. What we do try to provide is some flexibility to 
the sentencing court when it comes to the low end of a 
mandatory minimum for a narrow category of crime, nonviolent 
drug offenses. I guess my question to you is the same one 
raised by Chairman Grassley. Is this going to make it more 
difficult, in your estimation and opinion, for the prosecutor 
to get the cooperation of the defendant or to basically see 
that justice is served if such a change were made?
    Ms. Yates. Thank you, Senator, for that question, because 
this is an issue that I feel very strongly about. I believe 
that the Smarter Sentencing Act is going to--if passed, will 
make our country much safer. And specifically with respect to 
the question that you have asked about the ability for 
prosecutors to be able to obtain cooperation from defendants, 
I'm not worried about that either and I can tell you why.
    In the last year, we've gone back and done some research on 
statistics after the passage of the new Department policy on 
the Smart on Crime Initiative. This is an initiative where the 
Department is trying to use mandatory minimum sentences and the 
way that we'll ensure that those sentences are reserved for the 
defendants who are most in need of the long mandatory minimum 
sentences.
    Now, many of my colleagues and local and line AUSAs were 
concerned that they wouldn't be able to get cooperation from 
defendants if they didn't have the hammer of a mandatory 
minimum hanging over their head, but the statistics from the 
last year indicate that that's not the case because over the 
last year the percentage of defendants pleading guilty in drug 
cases has remained precisely the same. Actually, it's gone up 
half a percentage, as it was prior to the time that we 
instituted Smart on Crime.
    Likewise, the percentage of drug defendants who are 
cooperating in drug cases has also remained the same. And as a 
prosecutor who was doing this actually even before we had some 
of these mandatory minimums, or even the sentencing guidelines, 
I wasn't surprised by that because a defendant will always have 
an incentive to want to get a lower sentence, whether that's a 
sentence that's lower from a mandatory minimum or just the 
advisory guideline range.
    So not only from a gut feeling did I not think that would 
be the case, the empirical evidence also indicates that that 
did not have a detrimental impact on the ability to get 
cooperation.
    Senator Durbin. I don't want to presume, when you said it 
would make us safer, but you noted earlier the vast expenditure 
of our Federal resources in incarceration. I think the average 
on mandatory minimums is about an 11-year incarceration. So 
without going too far, are you suggesting that those resources 
could be applied in other ways to make us safer?
    Ms. Yates. Absolutely. As I've looked at the spending of 
the Department of Justice and seen that the Bureau of Prisons, 
each and every year, takes up a larger and larger percentage of 
the Department of Justice budget, that money has to come from 
somewhere. And where it's been coming from is money for agents 
and prosecutors, and also critically, importantly, money for 
State and local law enforcement assistance for the cop on the 
street. Those are the things that I believe keep our country 
safe.
    Now, let me also say, though, there are some defendants who 
need those long sentences. There are some defendants who need 
to be in prison for a very long time because they are dangerous 
and our society needs to be protected from them. But I think we 
need to use those lengthy sentences in a smart way to keep our 
country safe.
    Senator Durbin. Just to reinforce your last point, that's 
why Senator Lee and I have not eliminated any mandatory 
minimums when it comes to the maximum side, nor eliminated them 
for any crimes. We are trying to narrow this into the category 
least likely to be a threat if their sentences were shorter.
    Thank you for your testimony.
    Ms. Yates. Thank you, Senator.
    Senator Lee. Thank you, Senator Durbin. Thank you for your 
work with me on the Smarter Sentencing Act, and thank you for 
your insights into that legislative proposal which I 
wholeheartedly support and am honored to be working on with 
Senator Durbin and others.
    First of all, Ms. Yates, I want to congratulate you on your 
nomination and thank you for coming here to answer questions 
today. I also want to thank Comer, Kelley, and Quill for 
joining you and being willing to support you in this effort.
    As I am sure you have come to appreciate, that the Deputy 
Attorney General is, in many ways, the functional head of the 
U.S. Department of Justice, the Attorney General ultimately 
sets Department policy about the most important matters, but 
the day-to-day responsibility of carrying out those policies 
and overseeing the Department of Justice's work falls to the 
Deputy.
    You and I have met a couple of times now and I've very much 
enjoyed our conversations. I've appreciated and have been 
impressed with your credentials, your experience, your 
approachable manner, and what seems to be a very good judgment 
on a whole host of issues. I'm sure those qualities serve you 
very well as the Acting Deputy Attorney General, and will 
continue to do so, if you are confirmed.
    I want to ask you about two areas of concern that we have 
discussed a little bit before. First, the broader 
responsibility of the Department of Justice to give competent, 
credible, and independent advice; and second, what you would 
do, or have already done as Deputy, to restore the trust and 
the confidence of the Congress, and of the American people 
generally, in the work that's carried out by the Department?
    On the first category, the Department of Justice is, of 
course, the U.S. Government's legal arm. Some might describe it 
as the Federal Government's internal law firm. As a member of 
its senior leadership and as its second-highest ranking lawyer 
in this position, who do you think is your client? Is the 
client the President, is it the Attorney General, is it the 
Congress? Who is the client?
    Ms. Yates. There's a very clear answer to that, Senator, 
and that is the people of the United States. It's not the 
President, it's not the Congress, it's the people of the United 
States.
    Senator Lee. And so that requires a degree of independence, 
in a sense, doesn't it?
    Ms. Yates. It absolutely does. Yes, sir.
    Senator Lee. Okay. I think that's important to remember. 
Lawyers generally always do well to remember who their client 
is, and in many cases, deciding who speaks for the client can 
be a difficult task that becomes especially difficult when 
dealing with government, especially a large one.
    To that end, let's talk a little bit about the President's 
Executive action on immigration for a minute. I'm referring 
here to the Executive action announced in November 2014.
    Now, before the President took that particular Executive 
action, some 22 times prior to that the President disclaimed 
any legal authority to regularize the status of individuals, 
immigrants, here unlawfully.
    Then came along an opinion from the Office of Legal 
Counsel, part of the Department of Justice, explaining why a 
combination of maximally exercised prosecutorial discretion and 
some strained inferences from past practices made it legal for 
the President of the United States not only to refuse to carry 
out the immigration laws against entire broad categories of 
individuals, but also to affirmatively issue work permits to 
individuals that Congress has deemed ineligible for work 
permits.
    Now, I'm going to ask you about that opinion in a minute, 
but I just want to review the landscape for a minute. When Ms. 
Lynch came before our Committee for her confirmation hearing 
just a few weeks ago, she testified that she had found that OLC 
opinion reasonable, and indeed, I think, make clear enough that 
she thought it was correct.
    Since then, since that hearing was held a few weeks ago, 
there is something significant that has changed in that a 
Federal District Court in Texas, the U.S. District Court for 
the Southern District of Texas, issued a lengthy opinion in the 
context of a preliminary injunction rejecting the OLC's 
analysis and imposing an injunction against the President's 
action. Now, the Department, of course, is now fighting that 
injunction and we all have to wait and see how the Fifth 
Circuit resolves that dispute.
    But I want to ask you, are you familiar, more or less, with 
that District Court opinion, or, at least, what it does, and in 
light of the opinion, in light of its findings, its conclusions 
and its analysis, do you think reasonable minds can, at least, 
differ as to whether the President's conclusions were lawful?
    Ms. Yates. Well, thank you for raising this issue, Senator. 
This is obviously an issue on which people have very strongly 
held views, and I think that's certainly very understandable 
and it is an issue on which reasonable people can disagree.
    The fact of the matter is, as you have pointed out, this 
matter is in the courts now. As everybody here knows, the Texas 
District Court has ruled, and the Department of Justice is 
going to abide by that ruling not just in Texas but across the 
country, unless and until a higher court reaches a different 
decision. And so this issue is now in the courts to be resolved 
and we will observe that ruling, whatever it turns out to be.
    Senator Lee. Okay. I appreciate hearing from you that this 
is an issue on which reasonable minds can reach different 
conclusions. Have you read the Office of Legal Counsel 
memorandum that I'm describing?
    Ms. Yates. I have. Yes, I'm generally familiar with it, 
Senator.
    Senator Lee. And I know you weren't in your current 
position. You weren't serving as the Acting Deputy Attorney 
General at the time that was issued. But have you since formed 
your own legal opinion as to whether the legal analysis in that 
opinion was correct?
    Ms. Yates. Well, as you noted, Senator, since mid-January 
I've been serving as the Acting Deputy Attorney General of the 
Department of Justice. The Department of Justice is now 
currently involved in litigation on precisely this matter, and 
as the Acting Deputy Attorney General it's really not 
appropriate for me to be giving my personal opinion on any 
matter in which the Department is involved in pending 
litigation, which would include this matter as well. The 
Department's position is set forth in the pleadings, and I 
stand by those pleadings.
    Senator Lee. Are there limits to prosecutorial discretion?
    Ms. Yates. There certainly are limits. Yes, Senator, there 
are.
    Senator Lee. If a future President decided that he or she 
would direct all personnel within that Presidential 
administration not to enforce any tax rate above 25 percent, 
would that strike you as an appropriate use of prosecutorial 
discretion?
    Ms. Yates. You know, I think there certainly are limits, 
both legal and constitutional, to prosecutorial discretion and 
to the President's authority, but defining and drawing those 
lines really requires knowing all of the facts and looking at 
the law, both the statutory law, case law, and regulatory law 
and examining that and considering that. I wouldn't be much of 
a lawyer if I gave you a knee-jerk reaction to that.
    Senator Lee. Sure. Sure. But there may be occasions, if you 
are confirmed as the Deputy Attorney General, when you might be 
serving, for one reason or another, at one time or another, as 
the Acting Attorney General. In that capacity there might be 
times when you get a call from the White House saying, hey, 
what do you think of X, and where you might be asked to offer 
up your knee-jerk reaction.
    I assume your knee-jerk reaction would be one that would 
include a healthy amount of skepticism or one that would be 
weighed against a President saying, hey, I think I can reduce 
the Tax Code by Executive action just by saying no taxes will 
be collected above 25 percent. Would you agree with that?
    Ms. Yates. Well, certainly. If I were called upon to give 
my on-the-spot reaction, I could give a gut reaction, as all of 
us have or all of us do when we are confronted with things. But 
before I would ever give a legal opinion on anything, I'm a 
careful lawyer and I would want to look at the law and I would 
want to talk with folks who are experts, and I would want to 
think about the ramifications of it and make sure I was giving 
a reasoned and considered opinion.
    Senator Lee. Okay. But your gut reaction is that it sounds 
a little different than prosecutorial discretion, that one?
    Ms. Yates. I think that, again, it doesn't sound quite like 
something I would think was probably a good idea.
    Senator Lee. Okay.
    Ms. Yates. But before I could give you a legal conclusion 
on that I would want to do all of the things I've just 
described.
    Senator Lee. Okay. Thank you very much. I see my time has 
expired.
    Senator Perdue.
    Senator Perdue. Thank you, Senator Lee.
    Thank you, Ms. Yates, for being here this morning. I really 
appreciate putting your family through this today, Comer, 
Kelley, and Quill. You know, I don't know what it was like for 
Kelley and Quill growing up in the house of a top prosecutor, 
but the fact that they've survived, I would commend them on 
that.
    [Laughter.]
    Ms. Yates. They weren't the least bit intimidated, I can 
tell you that.
    [Laughter.]
    Senator Perdue. I'm sure. I'm sure.
    I've watched your career in Georgia, being from Georgia. 
I've watched you go after the human traffickers, the sex 
offenders, the drug cartels, and even the gangs, the Mexican 
gangs we've already talked about today, the MS-13, among 
others. But I also saw you go up against white-collar 
criminals, and even elected officials, even an ex-mayor in a 
public corruption case there in Georgia, and I commend you for 
that.
    In your comments this morning you commented that--you made 
the comments that your loyalties were to the people of the U.S. 
and the U.S. Constitution, and that the Deputy Attorney General 
has to be, first and last, independent and nonpartisan.
    I would second that. I would also put, for the record, my 
observation that that's exactly what you did in your role in 
Georgia, and I hope you bring that to this role in the Justice 
Department here in Washington. I want to change gears, though. 
I want to talk about the--you mentioned earlier in your 
comments that you would be the COO, in effect, of the Justice 
Department, and I think that's right, as a Deputy Attorney 
General.
    It's a $27 billion budget. That would put you among the top 
probably 100 to 150 top commercial organizations in the 
country, if not the world. You've been there about 3 months. I 
think we started about the same time and you've been drinking 
from a fire hose, but I'd love, for the record, for you to give 
us your observations about what your priorities are now that 
you've been there for 3 months. You're still in your first 100 
days. What reforms and changes do you see that you would like 
to make as priorities now as the COO of our Justice Department?
    Ms. Yates. Well, thank you, Senator, for the question, and 
also, thank you again for your kind introduction this morning. 
You're right. I've been here since mid-January about the same 
time that you started and I have been drinking from a fire 
hose. But during this time I've tried to bring the same 
management skills that I had as U.S. Attorney in Atlanta to the 
Department of Justice. It's the same thing but on a much larger 
scale, obviously.
    One of the things that I've tried to do there is to make 
sure that we are setting goals. I'm a big believer that you 
need to have strategic objectives, and that's right down to 
each and every component and each and every employee of the 
Department of Justice having a strategy and goals that they're 
setting.
    So, that's something that we're working on now: What are 
the things that we're going to proactively push forward in the 
Department? So, as a manager, I'm trying to gather the 
information there and to be able to set some of those goals 
going forward for the next 2 years, or it's not quite 2 years 
that's left now.
    I think I mentioned a little bit earlier that one of the--I 
think a critically important thing that we do at the Department 
of Justice is to continually reassess what our greatest law 
enforcement challenges are and to ensure that we are devoting 
our resources to those issues and those challenges rather than 
just continuing to do the same old thing that we've been doing 
before.
    So I'm asking our law enforcement agencies, as well as our 
38 components, to go through and to do a current assessment as 
to where we are and what our challenges are so that we can 
better focus our resources there going forward.
    I know that being a chief operating officer and a business 
person is something that you have experience at, and so I would 
welcome any advice from you as to things that--of ways that we 
could best manage the Department of Justice.
    Senator Perdue. Spend less money.
    [Laughter.]
    Senator Perdue. Let me follow up. You served as the vice 
chair of the Attorney General's Advisory Committee, I think, in 
your role in Georgia for several years, if I remember 
correctly. You were involved in their Smart on Crime 
initiative, if I'm correct. Can you discuss why you thought 
Smart on Crime was necessary and what your role in the design 
and implementation of that was and why it's pertinent today?
    Ms. Yates. Thank you, Senator. Actually, as a business 
person I think it's something that you could relate to because 
Smart on Crime was really about ensuring that we were using our 
limited Federal resources, our prosecutive resources and our 
resources of Federal prison bed space, in a way that would keep 
our country as safe as possible.
    Smart on Crime was designed to identify those defendants 
who are causing or wreaking the greatest havoc in our 
communities and to ensure that our lengthy prison sentences are 
reserved for those defendants so that we can free up the other 
resources that we so greatly need in the area of prosecutors, 
in the area of investigators, and in being able to provide 
resources to our State and local law enforcement officers. You 
know, having the cop on the street is one of the most important 
things that we can do for public safety.
    Senator Perdue. Let me change gears once again. You 
testified earlier--I think in 2011--that the Sentencing 
Commission, on the issue of supervised release for illegal 
immigrants who are in the Federal criminal justice system--I 
think in your testimony, you explained the Justice Department's 
position that these individuals should continue to be eligible 
for supervised release after sentencing. That was a position 
contrary to Commission recommendation. Can you talk a little 
bit about your position and the one ultimately taken by the 
Commission?
    Ms. Yates. I believe the Commission ultimately did go the 
other way on that but I think at the time the Department 
believed that it was really important that we maintain 
supervision in the event that we have a defendant, for example, 
reenter, and reenter illegally, that we would be able to use 
the tools that we need to be able to bring them immediately 
back into the court system at that point.
    Senator Perdue. And one last question, with a minute left. 
I know this is a longstanding question. But in your role as 
Deputy, you support the Attorney General, obviously, and your 
ultimate boss is the President of the United States.
    And when you disagree with the Attorney General, who's your 
boss, and you disagree with the President, and you have to 
command respect for the people inside the Department of Justice 
that execute on a daily basis to make us safer, and you said 
safety and not statistics was your number 1 goal, help me 
understand how you will balance those three issues relative to 
the ultimate objective you have of making us safer as a 
country.
    Ms. Yates. Well, Senator, throughout my career I have made 
it a practice to speak my mind. I've done that during the time 
that I was a line assistant, I've done that during the time 
that----
    Senator Perdue. Can we ask your husband that?
    [Laughter.]
    Ms. Yates. He might like me to speak my mind a little less, 
to be honest with you. But I have made it a practice to speak 
my mind, and that's something that I certainly would continue 
to do if I am fortunate enough to be confirmed in this 
position. You're right.
    If I'm confirmed, I'm the Number 2, not the Number 1, 
person. I would not be the chief policymaker, but rather 
essentially the chief operating officer. But I still expect 
that my view would be solicited, and even if it's not solicited 
I might give it.
    Senator Perdue. Thank you for your testimony.
    Thank you, Mr. Chairman.
    Ms. Yates. Thank you.
    Chairman Grassley [presiding]. Senator Franken.
    Senator Franken. So it's up to me to decide whether I'm 
ready or not?
    Senator Blumenthal. You have a right to remain silent.
    [Laughter.]
    Chairman Grassley. But difficulty doing so.
    Senator Franken. I'm not ready.
    Chairman Grassley. Okay. Senator----
    Senator Franken. Actually, I'm doing this just out of 
respect for Senator Sessions and I'm completely ready, but I'd 
rather he go because of my great respect for him.
    Senator Sessions. Senator Franken is always ready and he's 
very good at timing, you can be sure of that.
    Well, Ms. Yates, you are going into a different world than 
the United States Attorney's Offices. I've got to tell you, 
I've observed both over the years and you're going to need all 
those values that you learned appearing before Federal judges 
every day, knowing that you prosecute one person one day and 
another one the next, and it's absolutely essential that in 
both cases the law was applied fairly.
    I feel that almost every United States Attorney that has 
any good character understands the pressure and the burdens to 
do that. Director Freeh, the former FBI Director, is so 
complimentary of you and came by, even though he had to 
struggle a bit, to make sure we knew that he thought you were 
exceptional. Your background is a good background for this job, 
and the Atlanta office has always been a good office. And the 
King & Spalding team, with former Attorney General Griffin 
Bell, is a good firm to have been associated with, that's for 
sure.
    But this tends to be a political world at the top of the 
Department of Justice and I guess my first question to follow 
up on is, do you understand that in this political world there 
will be people calling, demanding, pushing, insisting on things 
that they do not know what they're asking for and could, 
indeed, be corrosive of the rule of law, could diminish the 
respect the Department of Justice has, could diminish the rule 
of law in the United States? Are you aware of that? Maybe 
you've already learned that in the time you've been there.
    Ms. Yates. Well, you're right, Senator, I'm not from here. 
I have only been here for a couple of months. But I can tell 
you, I am committed to the Department of Justice. I love our 
Department. I care deeply about our mission and I would do 
everything in my power to protect the integrity that is the 
Department of Justice.
    Senator Sessions. Well, I understand that. Senator Lee 
asked you about this tax situation, whether President--I think 
I heard him say if he just decides that the 35 percent tax rate 
is too high, he's going to say we're not going to collect more 
than 25 percent, and you said, after pressed a little bit, 
doesn't sound like something I'd agree with. I'd say that 
shouldn't take you too long to say, ``No, this isn't right.''
    Ms. Yates. Well, I agree, Senator. I think what I was 
telling you was that that was certainly my gut reaction to it. 
But if I'm going to be doing battle with anybody, I want to 
make sure that I have the law and the facts and the precedent 
behind me to be able to give a reasoned judgment. And if I'm in 
a discussion where people have different views, I want to make 
sure I've got what I need to back up my views.
    Senator Sessions. Well, you have to watch out because 
people will be asking you to do things you just need to say 
``no'' about. Do you think the Attorney General has a 
responsibility to say ``no'' to the President if he asks for 
something that's improper?
    A lot of people have defended the Lynch nomination, for 
example, by saying, well, he appoints somebody who's going to 
execute his views. What's wrong with that? But if the views the 
President wants to execute are unlawful, should the Attorney 
General or the Deputy Attorney General say ``no'' ?
    Ms. Yates. Senator, I believe that the Attorney General or 
the Deputy Attorney General has an obligation to follow the law 
and the Constitution and to give their independent legal advice 
to the President.
    Senator Sessions. Does the Office of Legal Counsel, which 
makes many of these opinions that impact policy, does it report 
through the Deputy's Office or directly to the Attorney 
General?
    Ms. Yates. Well, when you look at the org chart, the Office 
of Legal Counsel reports to the Deputy's office. But it's 
important that the Office of Legal Counsel also be independent 
because Federal agencies across our Government regularly come 
to the Office of Legal Counsel seeking advice and guidance 
about what is permissible and what isn't. It's critically 
important that the OLC advice, the Office of Legal Counsel 
advice, be just that, advice, and that it not be advocacy.
    Senator Sessions. Well, that's true. And, like any CEO with 
a law firm, sometimes the lawyers have to tell the CEO, Mr. 
CEO, you can't do that. Don't do that, you'll get us sued. It's 
going to be in violation of the law. You'll regret it. Please, 
no matter how headstrong they might be. Do you feel like that's 
the duty of the Attorney General's Office?
    Ms. Yates. I do believe that that's the duty of the 
Attorney General's Office, to fairly and impartially evaluate 
the law and to provide the President and the administration 
with impartial legal advice.
    Senator Sessions. And just as in a fraud case or any other 
drug case you might have prosecuted--excellently, it appears 
over the years--immigration law is important to be consistently 
and effectively enforced, should it not?
    Ms. Yates. I believe that all of our laws should be 
consistently and effectively enforced and within the confines 
of the Constitution.
    Senator Sessions. Well, and that's a good answer, but 
they're not being. So you're taking over as a Deputy to the 
Attorney General of the United States of America and we have 
just a collapse of integrity in immigration enforcement and the 
President's position on Executive amnesty just accelerates 
collapse of integrity, resulting in, for example, the lowest 
morale in the Department of Homeland Security officers who 
enforce the law of any Department in the entire Government, 
maybe even sued their supervisors because they're being told to 
not follow their oath to enforce the law, but to carry out 
political policies. There's a lawsuit over that. They sued 
their bosses over that, and I think they're correct.
    Now, I remember John Ashcroft, as Attorney General for 
Bush, he's been celebrated for being--when he was in the 
hospital they tried to get him to sign a document that dealt 
with terrorism that he thought went too far. He refused to do 
so. So I hope that you feel free to say ``no'' in the character 
of John Ashcroft, and others who said ``no'' to President Nixon 
on certain issues.
    Let me just ask you briefly this question. I'd like to have 
a clear answer, if I could. Do you think that the President's 
Executive action announced on November 20th is legal and 
constitutional? Can you give us a ``yes'' or ``no'' answer?
    Ms. Yates. Well, Senator, since mid-January I've been 
serving as the Acting Deputy Attorney General of the Department 
of Justice and the Department of Justice is currently 
litigating this matter, and so since I'm the Acting Deputy 
Attorney General of the Department of Justice when it's 
litigating this, it's really not appropriate for me to give you 
my personal opinion about this matter, or any other matter that 
the Department of Justice is litigating.
    Senator Sessions. Well, the only thing I care about is your 
official position. So your official position is, you're 
defending the President's action in court. Isn't that correct?
    Ms. Yates. The Department of Justice has filed pleadings 
with its position and I stand by those pleadings.
    Senator Sessions. Thank you.
    Chairman Grassley. Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much, Mr. Chairman, 
and thank you so much, Ms. Yates, for being here. I enjoyed the 
visit we had. I know one of the things that Senator Cornyn 
asked you about that the two of us have been working on 
together very hard is the trafficking issue, and I know he 
asked you about some of the border issues. And I actually went 
down there with Cindy McCain on this issue of trafficking and 
had a very good visit about that last year.
    But I thought I'd just ask you what you have done in the 
Northern District of Georgia to address human trafficking in 
your former job and how you see it going forward domestically 
with the Department of Justice.
    Ms. Yates. Well, as we've talked about some here this 
morning, human trafficking is one of the most pressing criminal 
justice issues that we're facing in the Department and in our 
country right now. When I became U.S. Attorney 5 years ago, I 
highlighted human trafficking as being an area where we were 
going to prioritize resources.
    We actually were one of the first offices in the country to 
form an ACT team, which is essentially a task force of Federal 
agencies and prosecutors, as well as State and local 
prosecutors, to go after, as aggressively as we possibly could, 
the traffickers and those who were assisting the traffickers 
with these young women and children.
    As important as aggressive enforcement is, though, that 
alone is not enough. So one of the first things that I did was 
to hold a human trafficking summit and to ensure that we were 
first educating our community about what's going on within 
their very neighborhoods.
    That's important for a couple of reasons, not just general 
public education, but because it's also important that we 
educate people about the signs of human trafficking so that 
when they see someone that they think could be in that 
position, that they'll alert law enforcement.
    A third thing that we did was actually to train law 
enforcement in Georgia about, again, recognizing the signs of 
human trafficking. It's oftentimes the local street cop who's 
most likely to encounter the trafficking victim. They really 
didn't know what to be looking for, and oftentimes they looked 
at these young women and children as willing prostitutes as 
opposed to trafficking victims.
    So we engaged in some very intense training so that they 
would recognize those signs and, in fact, just a couple of 
weeks after one of our first trainings a local law enforcement 
officer pulled over a car on the interstate and there was a man 
and a young girl, a teenaged girl there, that just didn't feel 
quite right to him based on the training he had received.
    So, he did what he was trained to do, and that was to 
separate the two of them. And when he did, he learned from this 
young girl that she had been trafficked for 2 years, since she 
was 14 years old, and had been praying to be rescued. Because 
of the training he had received, she was rescued. I say that 
not to pat us on the back for doing the training, but rather to 
highlight how important it is that we do more than just focus 
on enforcement, that we need to educate and train as well.
    Senator Klobuchar. Exactly. Well, I appreciate that and 
we're hopeful we'll reach some kind of agreement on the 
legislation on the floor and be able to move forward and help 
with some funding, as well as the Safe Harbor bill that I'm 
leading that passed through this Committee unanimously a few 
weeks ago, which I think gives some guidance and incentives for 
the States.
    The Civil Rights bill. This marks the 50th anniversary. So 
many people gathered in Selma. I know that Senator Sessions was 
there, and others. Half a century later we've made tremendous 
progress in ensuring the voting rights, but I've been 
disappointed that we haven't been able to move forward on the 
Voting Rights Amendment Act. As we know, there are some 
Republicans that are cosponsoring it in the House.
    What are your plans to ensure that the Justice Department 
remains committed to protecting the right to vote?
    Ms. Yates. Well, I was incredibly privileged to be able to 
be in Selma for the anniversary, and I think that Congressman 
Lewis' presence here earlier today, it's a really powerful 
reminder of the sacrifices that he and our other fellow 
citizens have made to ensure that everyone has the right to 
vote.
    I can tell you that if I am confirmed as Deputy Attorney 
General, I believe it is my responsibility to do everything I 
can to safeguard that precious right to vote. Indeed, I think 
it's the responsibility of all citizens to do everything they 
can to safeguard the right to vote of their fellow citizens.
    Senator Klobuchar. Well, thank you. I have some questions 
I'll put in the record.
    Senator Klobuchar. Senator Lee chairs, now, the Anti-Trust 
Subcommittee and I'm the Ranking Member, so we care a lot about 
that. I think you and I briefly talked about the metal theft 
issue. But I think I'll end with synthetic drugs, something 
that the Chairman and I have worked on, along with Senator 
Schumer. They continue to be a big problem across the country. 
We have made some headway.
    We actually have some bills to reclassify some of the 
substances that were very helpful, actually, in a major case 
that the U.S. Attorney's Office successfully won in Minnesota. 
But part of the problem here is that sellers of these drugs 
have managed to continue to find loopholes in the law. They 
simply make a minor change to the molecular compound and then 
slap a not-for-human-consumption label on the drug.
    I've worked with bipartisan support over the past several 
years to help close those loopholes dealing with these not-for-
consumption labels. It's necessary for law enforcement to be 
able to successfully prosecute these cases. We actually have 
been working on a bill, working with the DEA.
    I think our work is not done, Mr. Chairman, on these 
issues. I know Senator Feinstein is also interested. But could 
you talk about the problem with trying to go after those cases 
with the not-for-consumption labels?
    Ms. Yates. Well, thank you, Senator, for your work on that 
and for your interest in this issue because synthetic drugs are 
a real danger, particularly for our youth. They are incredibly 
deadly. In fact, this has been a real problem in the State of 
Georgia and an area where we really have emphasized again the 
public education, as well as prosecution.
    You're also absolutely right that they just keep changing 
up the chemical structure in it. So for Federal prosecutions 
we've had to use the analog statute. The analog statute is very 
difficult and convoluted.
    Senator Klobuchar. And that's what we're trying to make 
some changes to.
    Ms. Yates. Yes.
    Senator Klobuchar. Yes.
    Ms. Yates. And it makes it essentially a battle of 
chemistry experts, which you can talk about--you know, as 
compelling as these cases are, the jury's eyes are glazing over 
as they are hearing the battle of the chemistry experts.
    Senator Klobuchar. Not to mention, in some of the rural 
jurisdictions, finding chemical experts and paying for them. 
Yes.
    Ms. Yates. It can end up becoming more of a science class 
than a trial where you have individuals, oftentimes teenagers, 
who have died as a result of these drugs. So we are very 
grateful to you for your leadership on this issue and think 
that this is both, as so many areas are in our criminal justice 
area, it's a criminal justice issue but this is a public health 
issue as well.
    Senator Klobuchar. Okay. Thank you very much. I appreciate 
it.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you.
    Now, Senator Franken.
    Senator Franken. Thank you. Thank you, Mr. Chairman.
    Ms. Yates, first of all, congratulations on your 
nomination.
    Ms. Yates. Thank you.
    Senator Franken. During your short time as Acting Deputy 
Attorney General you and I have had occasion to speak on a 
number of occasions and on some issues that I care about. I'd 
like to thank you for taking those concerns to heart and 
working with my office to see that they're addressed. We also 
met in my office earlier about this nomination earlier this 
month, and I'm impressed by your grasp of the issues and your 
commitment to enforcing the law.
    You and I have spoken twice about the issue of terrorist 
recruitment. It's an issue that I and Senator Klobuchar have 
been very focused on because we've seen it happening in 
Minnesota for some time, starting before I came to office, 
first with al-Shabaab, and more recently with ISIL.
    I've pressed the FBI Director and others publicly on the 
issue over the years and it's something that I and Senator 
Klobuchar will continue to press DOJ on. Last September, we 
urged the Department to make sure it was focusing its resources 
on countering violent extremism in the United States in places 
where those efforts are needed most, and we were pleased to see 
that Minnesota was chosen as one of those sites for the new DOJ 
pilot program on that.
    We've been in touch with law enforcement, as well as the 
local community in Minnesota, on an ongoing basis. I'm going to 
continue, and so will Senator Klobuchar, the implementation of 
the program and we'll keep pressing the administration and make 
sure both the State is getting the resources it needs and that 
the affected communities are fully engaged. Real cooperation 
with the community and responsiveness to their concerns is 
essential for this program's success.
    Now, I understand you've been in communication with Andy 
Luger, our U.S. Attorney there, about the need for the program 
to start as soon as possible. We have some real momentum. When 
we had the Summit at the White House, I thought that our pilot 
program showed that it was in motion. Will you commit to 
working with us to make sure that this happens so that we can 
be sure that our efforts to counter violent extremism are 
effective, and do you have any thoughts on how to improve or 
expand upon the pilot program?
    Ms. Yates. Yes. Well, thank you for the question, Senator, 
and thank you for meeting with me and giving me an opportunity 
to talk with you on a couple of occasions now about these 
issues. Certainly countering violent extremism has always been 
important, but even more so now.
    We've seen a level of sophistication from ISIL that really 
demands a comprehensive response. And it can't just be a law 
enforcement response, it has to be a response in coordination 
with our communities. That's what these pilot programs are 
designed to do.
    When you and I had an opportunity to speak, I think I told 
you that Minneapolis has been at the very top of the list in 
terms of the effectiveness of that program and the really 
comprehensive approach being taken there and partnership 
between law enforcement and the communities. This is crime 
prevention and it is the most essential crime prevention that 
we can be doing. So the Department is absolutely committed to 
working with you, and with all, in ensuring that we're doing 
this as effectively as possible.
    Senator Franken. And hopefully that we'll get the resources 
that we need without delay so that the momentum that Andy has 
started will continue, right?
    Ms. Yates. Absolutely, Senator. In fact, I was at the same 
CV conference as well and had an opportunity to not just hear 
from various folks in the different cities who were engaged in 
this, but to feel the energy in the room. There is an urgency 
about this. And I agree with you that the resources will be 
critical to being able to do that as well.
    Senator Franken. Thank you.
    I want to talk about mental health and law enforcement. For 
years, public officials have been concerned about our Nation's 
overflowing prison system. America has 5 percent of the world's 
population but 25 percent of its inmates. I think one of the 
biggest problems is that we've used our criminal justice system 
as a substitute for a well-functioning mental health system.
    Use of solitary confinement and a lack of adequate mental 
health resources are part of a vicious cycle in our prisons. 
It's a cycle that especially poor individuals, those who have 
been unable to afford to access mental health services, are 
especially likely to get caught up in and with devastating 
consequences.
    This is why I will be reintroducing my bill on criminal 
justice and mental health very soon, called the Comprehensive 
Justice and Mental Health Act, and it makes smart investments 
in law enforcement training, critical intervention training, 
treatment and counseling, corrections-based programs, and 
mental health and veterans' courts.
    My question is, Will you work with me on these efforts and 
what do you think you can do as Deputy Attorney General to 
promote a positive approach to dealing with mental health in 
our criminal justice system?
    Ms. Yates. Well, thank you, Senator. Absolutely, I would 
look forward to working with you on this. This is one of the 
most challenging issues that we have in the Department of 
Justice now. Within the last couple of years there has been a 
push toward veterans' treatment courts, as an example of the 
issue that you talked about there. This is something that U.S. 
Attorneys across the country are now exploring, and certainly 
that's something I believe, as Deputy Attorney General, that I 
can encourage those types of courts as well.
    Senator Franken. Well, this Act would fund veterans' 
treatment courts and mental health courts where the prosecutor, 
the arresting officer, the defense attorney, and the judge all 
agree that this person does not belong in the criminal justice 
system.
    It may be, in the case of a drug court, someone who's 
medicating a mental illness--and certainly are men and women 
who came back from Iraq and Afghanistan, have been doing that 
to a great degree--and they deserve to not be put in prison, 
but to have the opportunity to be diverted into a treatment 
program.
    Ms. Yates. Yes. Well, I would look forward to working with 
you on that, Senator.
    Senator Franken. Okay. I've run out of my time. I'll submit 
a couple of questions for the record. Thank you very much, Mr. 
Chairman.
    [The questions appear as a submission for the record.]
    Ms. Yates. Thank you.
    Chairman Grassley. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Mr. Chairman. 
Welcome, Ms. Yates. Good to have you here. Congratulations on 
your nomination. I look forward to working with you. As a 
refugee of the Department of Justice, I know what an absolutely 
essential role the Deputy Attorney General, the DAG, has in the 
operations of the Department.
    Our Chairman, Senator Grassley, and I will be working 
together on the reauthorization of the Juvenile Justice bill, 
and I know that that's an important area to the Department. We 
look forward to working with you to enable that bill to move 
forward and get passed into law. It's been many years since 
there's been an authorization.
    We've learned a lot about how juveniles are treated in the 
system and what's effective and what isn't since then, so I 
think there are very positive bipartisan effects that we can 
have through this legislation. I want to thank the Chairman for 
taking the leadership role in this reauthorization. It's 
obviously significant when a Chairman is willing to do that, so 
thank you, sir.
    We've talked in the hearing quite a bit about sentencing 
reform. I'm obviously very involved in that with Senator Cornyn 
on the reentry side of the discussion and we hope that our bill 
will be a vehicle that can move forward and perhaps get other 
elements added to it as well into a more comprehensive package. 
I also have a bill on comprehensive addiction recovery. That's 
less immediately DOJ's business, but we do have it in this. 
It's a very related issue, let me put it that way.
    I hope that we can get your support in working through any 
issues that come up in the context of addiction recovery. There 
was a school of thought for a while that drug use was a moral 
failing and an evil and that the best way to get after it was 
to punish it in a whole variety of ways, including creating a 
whole raft of collateral consequences that ensure if you have a 
drug conviction that--I mean, there are hundreds of these laws 
that have been put all over the place.
    I think upon more mature reflection, we've seen that 
treatment works, recovery works, and when somebody's on a path 
to recovery you're really not helping them or anybody else by 
saying you can't work in schools, you can't get a college loan, 
you can't do this, you can't do that, you can't do the other.
    So, I hope you will work with us on that, and I'd just like 
to hear your thoughts about the role of moving from a more 
treatment-based response to addiction and away from a 
incarcerative and punitive response.
    Ms. Yates. Well, thank you, Senator, for your work on this 
and for your question. We certainly have seen in States across 
the country, red States and blue States, that have taken really 
more creative approaches to addressing criminal justice and 
particularly drug use issues.
    We see in our criminal justice system that drug addiction 
does fuel many crimes, and that I look at this as really a form 
of crime prevention, of trying to address an addiction issue to 
ensure that that person has a path forward and to ensure that 
others then are not victimized when they commit crimes that are 
driven, in part at least, by their drug addiction. So I would 
look forward to working with you and others on that matter.
    Senator Whitehouse. Good.
    The last topic I wanted to address with you is cyber 
security. Cyber security has a lot of different elements to it. 
It has a national security element. Obviously there's 
considerable capacity for sabotage against the electric grid 
and other very essential elements of our infrastructure.
    There is a huge flow of intellectual property that is 
stolen out of people's computers. I think the vast majority of 
it probably ends up in China, where they have a policy of 
trying to steal American intellectual property for mercantile 
reasons so they can compete with us without having to pay to 
license the technology.
    There's enormous amounts of financial crime, not just 
around America, but around the world, hugely lucrative for 
these criminals, and then there are privacy concerns obviously 
when your Social Security information is being hacked, stolen, 
and sold on a website so that somebody can open up a credit 
card in your name, that kind of stuff.
    So I think it's a very big deal. I think we need to be 
deliberating what our law enforcement response to it should 
look like. I noticed that it is basically a subset of the FBI's 
responsibilities, with Secret Service and other agencies having 
also a piece of it. That does not seem particularly 
thoughtfully organized. I note that cyber is probably a greater 
risk to our country now than narcotics trafficking and alcohol, 
tobacco, firearms, and explosives.
    Yet, we have entire agencies dedicated to those and no 
agency specifically dedicated to cyber. I note that within the 
Department of Justice the cyber responsibility is divided 
between the Criminal Division and the National Security 
Division, and I note that about every 6 months there's a new 
iteration of the structure for dealing with cyber that emerges 
from the Department.
    So clearly we have a work in progress, but I would like to 
ask you if you would commit to working with us and with OMB--
we're bringing OMB to these conversations because I know how 
awkward it is for an executive agency to have a conversation 
about budget without the OMB keepers present in the room. They 
get quite cross about that if they're not there. To have a 
conversation about, in the out years, what should our cyber law 
enforcement structure look like? I don't think we're there yet. 
I don't know if you think we're there yet, but I certainly 
think it's a conversation worth having and I'd like to hear 
your thoughts.
    Ms. Yates. Thank you, Senator. You have really touched on 
one of the most critical challenges that faces the Department 
of Justice and our law enforcement community, and our national 
security intelligence community now. You rightly pointed out 
that it touches every aspect of our lives and there is 
certainly great work being done to attempt to coordinate our 
efforts in this area, both on the national security side and on 
the criminal side.
    But I think that you're right, that we need to step back 
and try to think about how we can structure ourselves in a way 
that would be most efficient going forward. You know, this is 
an area, too, in contrast to a lot of other criminal justice 
challenges, that is evolving, that is changing every day and 
changing rapidly.
    I think it's incumbent upon us not to just keep up with it, 
but to get out in front of it and to try to project where we're 
going to be 5, 10, 20 years from now and to be structured in a 
way that we will be able to adequately respond.
    Senator Whitehouse. Well, thank you, Chairman. I look 
forward to the conversations between OMB, DOJ, and Members of 
this Committee to look forward and make sure we're set up 
properly to deal with this threat.
    Thank you, Chairman.
    Chairman Grassley. I have two or three questions, and we 
have a vote at noon. I think both I and Senator Blumenthal will 
be able to finish our questioning. I would ask if you would 
finish up the meeting after I go. Is that okay?
    Senator Blumenthal. That's fine.
    Chairman Grassley. Okay.
    But before I ask the questions, just to thank you for your 
appearance today. Members who couldn't be here, or even in my 
case, will have some questions in writing and people will have 
a few days to submit those questions. We'd like to have those 
back before you go on the agenda, and I think you'll be able to 
do that. The few days I was talking about, is the record will 
stay open for 1 week.
    I have a question dealing with whistleblowers. This may 
have been something we discussed privately, but I want to go 
over it again. Earlier this month we held a hearing looking 
into the regulations that are supposed to protect FBI 
whistleblowers.
    The Justice Department and the Government Accountability 
Office have both published reports concluding that many FBI 
whistleblower cases are dismissed on technicalities because the 
whistleblower reported wrongdoing to, quote, unquote, ``the 
wrong person.''
    Do you think the system is working as it should to 
encourage and protect the whistleblower at the FBI, and then in 
regard to the wrong person, why wouldn't it be all right to 
protect--to have protected disclosure if made to a direct 
supervisor?
    Ms. Yates. Well, thank you, Senator. First, let me thank 
you for the honor of appearing here before you today, and I 
also want to thank you for your work with respect to 
whistleblower protections. I know that this is something that 
has been a priority for you. You've been at this for a very 
long time. And, as a U.S. Attorney who prosecuted False Claims 
cases, for example, I know how important whistleblowers are. 
They help to root out fraud and corruption and malfeasance, and 
they're critical.
    I will tell you, in my role as the chief operating officer 
of the Department, I also think that they will play a critical 
role for me in helping to identify problems within our own 
organization so that we can operate as efficiently and fairly 
as we are charged with doing.
    I have not yet seen this report. I'm looking forward to 
reviewing that report and determining what actions, if any, 
need to be taken to ensure that whistleblowers are having the 
kind of protection that they need to be able to come forward.
    Chairman Grassley. Well, I think you answered my next 
question just now.
    Ms. Yates. That's a relief.
    [Laughter.]
    Chairman Grassley. Because it was about that report--again, 
I would suggest to you, but also your comment whether or not 
DOJ regulations should be amended to clearly protect FBI 
employee disclosures to Congress, and if you don't think so, 
why?
    Ms. Yates. Well, Senator, I've not had an opportunity to 
look at that specific issue. I can tell you I certainly believe 
that whistleblowers need to be protected. That's critically 
important for them to feel comfortable to be able to come 
forward, and if there are revisions that need to be made, I 
certainly would want to look at those and to work with you to 
make those revisions. I simply have not had an opportunity to 
look at that specific provision to be able to give you a 
reasoned or a knowledgeable answer on that.
    Chairman Grassley. Well, then, instead of two questions 
along this line that I was going to finish my line of 
questioning on this issue, let me suggest to you that the 
Department of Justice should make sure that whistleblowers 
aren't sanctioned for violating gag orders that are--and gag 
orders are used to thwart congressional oversight of 
whistleblower cases. And there, at least, ought to be an 
exception in any gag order for disclosures to the Congress. And 
then, my final admonition would be, whether you would review 
that report before you answer my written questions.
    Ms. Yates. I would certainly be happy to review that 
report, yes, Senator.
    Chairman Grassley. Thank you. And then this will help you 
maybe give thorough answers to the questions that I just gave.
    This will have to be my last issue. In the last 2 months, 
the Inspector General has notified Congress that the FBI 
impeded his access to records four separate times as part of 
four separate IG reviews. Apparently the delay is due to the 
FBI's desire to review the materials first and then obtain 
permission to disclose from the Attorney General or from you in 
your Deputy position.
    One of the delays involved the IG's review of two FBI 
whistleblower complaints. How is it appropriate for the FBI to 
decide which documents it will produce to independent 
investigators looking into whether the whistleblower retaliated 
against the FBI? We're talking about the power of the Inspector 
General.
    Ms. Yates. Thank you, Senator. I believe that the Inspector 
General plays a really critical role at the Department of 
Justice, again, in helping us to identify misconduct or 
malfeasance, or just waste, fraud and abuse. That's one of the 
reasons why one of the first things I did when I became Acting 
Deputy Attorney General was to ask to sit down with our 
Inspector General.
    He and I have known each other for a long time. We were 
public corruption chiefs, he in the Southern District of New 
York and I in Atlanta, years ago, and have known each other for 
a long time. I talked with him about this issue that you have 
described here.
    My understanding of this issue is, that it's an issue that 
relates to how certain documents that are protected by the 
grand jury secrecy privilege or are protected pursuant to 
wiretap orders are reviewed and produced to the IG.
    It's my understanding that those documents have never been 
withheld, but rather our investigative agencies believed they 
needed to do a review of those documents and have--and go 
through a particular process before they could be provided to 
the Inspector General.
    Despite the fact they've always been provided, I 
understand, I get that he needs to get those documents quickly 
and so for the last few weeks I've been working with folks in 
the Department of Justice to try to come up with a procedure 
that will expedite our ability to be able to provide those 
documents very quickly to the Inspector General.
    If that is not satisfactory to him, we would be happy to 
work with you and other Members of Congress on any legislation, 
if it's needed, to be able to make sure that we can comply with 
the law, yet also be able to get our IG the documents that he 
needs as quickly as possible.
    Chairman Grassley [off microphone]. I think the law is 
pretty clear that the IG----
    Ms. Yates. Okay.
    Chairman Grassley. Now, I thank Senator Blumenthal for 
finishing the meeting.
    Senator Blumenthal. Actually, I'm going to finish it right 
now because I don't have any additional questions. I want to 
thank Ms. Yates and her family again. Thank you for your public 
service and your willingness to undertake this very, very 
important responsibility and for your excellent testimony 
today. Thank you.
    Chairman Grassley. Yes.
    Ms. Yates. Thank you, Mr. Chairman and Senator Blumenthal. 
It has been a privilege. Thank you.
    Chairman Grassley. Once again, meeting adjourned. Thank 
you. Thank you.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
